<html>
<title> - HELPING LAW ENFORCEMENT FIND MISSING CHILDREN</title>
<body><pre>[Senate Hearing 112-543]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-543
 
             HELPING LAW ENFORCEMENT FIND MISSING CHILDREN

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 2, 2011

                               __________

                           Serial No. J-112-7

                               __________

         Printed for the use of the Committee on the Judiciary




                  U.S. GOVERNMENT PRINTING OFFICE
75-919                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHUCK SCHUMER, New York              JON KYL, Arizona
DICK DURBIN, Illinois                JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
AL FRANKEN, Minnesota                MICHAEL S. LEE, Utah
CHRISTOPHER A. COONS, Delaware       TOM COBURN, Oklahoma
RICHARD BLUMENTHAL, Connecticut
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......     4
    prepared statement...........................................    50
Klobuchar, Hon. Amy, a U.S. Senator from the State of Minnesota..     1
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................    59

                               WITNESSES

Allen, Ernie, President and Chief Executive Officer, National 
  Center for Missing and Exploited Children, Alexandria, Virginia     9
Keightley, James, Partner, Keightley & Ashner LLP, Washington, DC    10
Perkins, Kevin L., Assistant Director, Criminal Investigative 
  Division, Federal Bureau of Investigation, Washington, DC......     6
Pirnat, Thea M., Detective, Fairfax County Police, Criminal 
  Investigations Bureau, Child Exploitation Unit, Fairfax, 
  Virginia.......................................................    12
Wetterling, Patty, Co-Founder and Member of the Board of 
  Directors, Jacob Wetterling Resource Center, St. Paul, 
  Minnesota......................................................     7

                         QUESTIONS AND ANSWERS

Responses of Ernie Allen to questions submitted by Senator 
  Blumenthal.....................................................    21
Responses of James Keightley to questions submitted by Senator 
  Blumenthal.....................................................    22
Responses of Kevin L. Perkins to questions submitted by Senator 
  Blumenthal.....................................................    23
Responses of Thea M. Pirnat to questions submitted by Senator 
  Blumenthal.....................................................    25
Responses of Patty Wetterling to questions submitted by Senator 
  Blumenthal.....................................................    26

                       SUBMISSIONS FOR THE RECORD

Allen, Ernie, President and Chief Executive Officer, National 
  Center for Missing and Exploited Children, Alexandria, 
  Virginia, statement and letter.................................    27
Congress of the United States, Joint Committee on Taxation, 
  Washington, DC, letter.........................................    37
Keightley, James, Partner, Keightley & Ashner LLP, Washington, 
  DC, statement..................................................    52
www.nytimes.com, November 12, 2010, article......................    60
Perkins, Kevin L., Assistant Director, Criminal Investigative 
  Division, Federal Bureau of Investigation, Washington, DC, 
  statement......................................................    64
Pirnat, Thea M., Detective, Fairfax County Police, Criminal 
  Investigations Bureau, Child Exploitation Unit, Fairfax, 
  Virginia, statement............................................    71
Wetterling, Patty, Co-Founder and Member of the Board of 
  Directors, Jacob Wetterling Resource Center, St. Paul, 
  Minnesota, statement...........................................    76


             HELPING LAW ENFORCEMENT FIND MISSING CHILDREN

                              ----------                              


                        WEDNESDAY, MARCH 2, 2011

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Amy 
Klobuchar, presiding.
    Present: Senators Klobuchar, Franken, Blumenthal, and 
Grassley.

 OPENING STATEMENT OF HON. AMY KLOBUCHAR, A U.S. SENATOR FROM 
                     THE STATE OF MINNESOTA

    Senator Klobuchar. OK. We are going to call this hearing to 
order. Good morning, everyone, and thank you so much for being 
here. Senator Grassley is going to be joining us. He is just 
over at the Finance Committee hearing. We are also joined by 
Senator Blumenthal, and Senator Franken also was here and hopes 
to stop back. There are a lot of hearings going on at the same 
time.
    Today's hearing will examine law enforcement's efforts to 
recover missing children, and we are going to hear today about 
law enforcement's efforts generally in this area. We have a 
panel that includes both Federal and local law enforcement 
representatives, but I would like to focus especially on the 
issue of family abductions and whether law enforcement has 
access to all the information that they need when it comes to 
recovering missing children.
    I want to thank Chairman Leahy for generously allowing me 
to chair this full Committee hearing. Both Chairman Leahy and I 
are former prosecutors. He was, as you know, a State's attorney 
in Vermont, and I was the county attorney in Hennepin County, 
Minnesota, so we care a lot about law enforcement, and we want 
to make sure that they have all the tools that they need to 
protect public safety and combat crime. I would also add that 
Senator Blumenthal was the attorney general of Connecticut.
    I want to thank Senator Grassley. He recently switched hats 
from being the Ranking Member on the Finance Committee to being 
the Ranking Member on the Judiciary Committee. He is a long-
time member of both committees, and my staff has been working 
with his staff for a couple of months on some of the issues 
that we will be talking about in today's hearing. We are 
grateful for his expertise in both areas.
    Today we are here to talk about the tools law enforcement 
uses to find missing children. This is an issue that probably a 
lot of us think we already know everything about. We read about 
tragic cases of missing children. We learn sometimes of the 
joyous reunions that some of these children have with their 
families, and even in cases where there is not yet a happy 
ending, we know that law enforcement at the Federal, State, and 
local levels devote an incredible amount of resources to 
tracking down every possible lead.
    I know about this issue mainly from my friend Patty 
Wetterling, who is here today to testify. Patty is a homegrown 
hero in Minnesota. She has become a tenacious national advocate 
for children's safety and particularly the plight of missing 
and abused children since her own son, Jacob, was abducted 22 
years ago.
    I became interested in holding a hearing on this issue last 
November when I read a newspaper article about an issue that 
does not always come to mind when we think about missing 
children: the problem of family abductions. The National Center 
for Missing and Exploited Children, which has done so much 
important good work in many different types of missing children 
cases, has also been instrumental in raising awareness about 
this issue as well.
    According to a Department of Justice study, approximately 
800,000 children are reported missing each year. That number is 
tragically high, but another statistic you might not expect is 
this: 200,000 of those cases are the result of family 
abductions, and approximately 12,000 of those cases last longer 
than 6 months. We might not think of these cases in the same 
light as we think of stranger abductions, but they are just as 
scary for the family members who are left behind. Those family 
members are just as frantic with worry.
    The newspaper article pointed out that in many of these 
cases, the abductors continue to file Federal tax returns, 
believe it or not. And, indeed, in many of these cases--and 
this is the shocking part--the abductors continue to claim that 
child as a dependent on their Federal tax returns. For the most 
part, these abductors may be upstanding citizens in every other 
area of their lives, and they are not eager to add tax evasion 
to the list of laws they are otherwise breaking. But this also 
means that a Federal agency--the Government, the Internal 
Revenue Service--may unwittingly have more information about a 
missing child's location in its databases than law enforcement 
does.
    A 2007 study by the Treasury Department examined the Social 
Security numbers of 1,700 missing children and the relatives 
suspected of abducting them. The study showed that more than 
one-third of those Social Security numbers had been used in tax 
returns filed after the abductions had taken place, and in half 
of those cases, the tax returns had new addresses for missing 
children.
    Now, just think about this. At the same time you have a law 
enforcement agency, local law enforcement, a cop in Maplewood, 
Minnesota, running around trying to figure out where this child 
is, the IRS in a third of those cases has a Social Security 
number and in a third of those cases actually has the new 
address.
    Right now it is incredibly difficult and in some cases 
impossible for the Federal Government to share this information 
with the police. As a general rule, this is good policy. We 
want to protect the privacy of taxpayer information. But if you 
have abducted a child and are otherwise in violation of State 
or Federal law, you are no longer entitled to that privacy. If 
law enforcement could access the names and addresses on these 
tax returns, they might well be able to locate missing children 
and return them to their parents.
    So I have introduced a bill to do just this: to untie the 
IRS' hands when it comes to disclosing critical information in 
missing children cases. The legislation is called the Access to 
Information about Missing Children Act, and it allows law 
enforcement officers working cases of missing children to 
request information like this from Federal agencies like the 
IRS. This is bipartisan legislation that I have introduced with 
Chairman Leahy and Senator John Cornyn of Texas, who serves on 
this Committee.
    Because this issue involves the IRS, we have also been 
working with the Finance Committee, on which Senator Grassley 
has served for so long, and the Joint Committee on Taxation to 
make sure we allow law enforcement access to relevant 
information but still maintain appropriate safeguards for 
privacy.
    Joining in this effort are Senators Casey and Enzi, who are 
also very interested in making sure we do everything we can do 
to help families of missing children. This means making sure 
that this information is not just available to Federal law 
enforcement. Although the FBI is involved in lots of missing 
child cases, they are almost always working in conjunction with 
State and local law enforcement, and State and local law 
enforcement officers are not always allowed access to things 
like Federal income tax returns.
    My legislation allows Federal law enforcement to get a 
court order for information disclosure on behalf of State and 
local law enforcement and will work to make that possible in 
the final bill as well.
    This means, of course, that State and Federal law 
enforcement will have to work together. I know when I was 
Hennepin county attorney, we had a great working relationship 
with the U.S. Attorney's Office, so I know this can be done. At 
a time of limited resources, it just defies reality that we 
would have one branch of the Government have information about 
addresses of missing children while we have another, local law 
enforcement, with very limited resources running around trying 
to find out where these kids are, in the computer. It makes no 
sense.
    The important thing is that we get this critical 
information into the right hands so we can bring these children 
home. I am looking forward to hearing from all our witnesses 
about current law enforcement efforts to find missing children 
of all types--stranger abductions, family abductions, children 
who are abducted and subsequently victims of trafficking or 
exploitation--and to having a conversation about how we can 
ensure that law enforcement has the tools they need.
    With that, it is a pleasure to have Ranking Member Grassley 
here back from his important Finance Committee hearing. Senator 
Grassley.

STATEMENT OF HON. CHUCK GRASSLEY, A U.S. SENATOR FROM THE STATE 
                            OF IOWA

    Senator Grassley. Thank you, Madam Chairman, for holding 
this very important hearing. More importantly, thank you for 
your personal involvement in this issue. And like you, I have 
been a supporter over the years of many efforts among many 
Senators to apprehend those who abduct children, exploit 
children, or otherwise harm children. Because many of these 
crimes involve transport over State lines or use of the 
Internet, there is a strong need, obviously, for the Federal 
Government.
    In 2006, I was able to include in the Adam Walsh Child 
Protection and Safety Act a version of child protection 
legislation I previously introduced. The provisions were named 
for Jetseta Gage, a brave 10-year-old girl who was abducted, 
sexually assaulted, and murdered by a repeat sex offender. 
Jetseta's bill created mandatory minimum sentences for 
criminals who commit murder, kidnapping, and serious bodily 
harm against children. Today's hearing will help bring into 
perspective the children, many like Jetseta, who were abducted, 
assaulted, and murdered. Our children deserve to grow up in 
communities free from child predators.
    One of the important points of today's hearing is to raise 
public awareness of the realities of missing children. Although 
parents rightfully fear that a stranger will abduct their 
child, that is not the common situation. Most abducted children 
were taken by people they know, often a parent. And much more 
than is commonly realized, these abductions involve force and 
violence.
    Of course, much of the work in this area is done by State 
and local law enforcement. The Federal Government should assist 
the efforts of State and local government, and I know that at 
least one of the witnesses today has an idea to help improve 
the situation when parents claim conflicting custody orders.
    One idea that will come up today is the use of the IRS data 
to possibly locate missing children. The Finance Committee will 
ultimately resolve that question. It is often said that if 
something can be done that might possibly rescue one missing 
child, that ought to be done.
    I certainly want to provide all sensible help to law 
enforcement to find missing children. But even well-meaning 
proposals can implicate other important values that need to be 
considered. We will do our best, and I am pleased that we do 
have witnesses today who will bring insight to the reasons for 
confidentiality of tax returns and the practical realities that 
might be affected by a change in tax confidentiality rules. 
And, Madam Chairman, I ask unanimous consent to put in the 
record a letter from the Joint Committee on Taxation on this 
very subject.
    Senator Klobuchar. Without objection, that will be included 
in the record.
    Senator Grassley. Thank you very much.
    [The letter appears as a submission for the record.]
    Senator Klobuchar. Thank you, Senator Grassley.
    Senator Blumenthal, if you want to say a few words
    Senator Blumenthal. Thank you. Thank you, Madam Chairman, 
and I want to begin by thanking Senator Klobuchar for being 
such a champion on this issue and adding so much by having this 
hearing, but even more important, through the bill that she has 
introduced, which I will be very proud to cosponsor, and for 
the work that she is doing in Minnesota. And I thank the folks 
who are here to enlighten us because each of them has really 
done such tremendous work in this area, and I am very proud to 
say I have worked with Mr. Allen and his work at the National 
Center for Missing and Exploited Children as attorney general, 
and I know the high regard and respect that attorneys general 
have for him and have had for him in the work that we have done 
on MySpace and Facebook and Craigslist and a number of other of 
the social networking sites.
    I guess I would just say that this kind of reform falls 
into the area of sort of common sense. As Mr. Allen himself 
said in a New York Times article in November of 2010, it is one 
of those areas where you would hope that common sense would 
prevail. And I think that this measure is one of common sense. 
It makes eminent good law enforcement sense that State and 
Federal investigators should be able to share this kind of 
information, protecting the privacy concerns that legitimately 
have to be taken into account. We know why there are 
restrictions on the IRS sharing information that date from the 
Watergate days. But those kinds of concerns can be surmounted 
in a process that respects them and the rights of individuals 
whose information may be shared.
    So I look forward to this hearing, and again, my thanks to 
the Chairman for her very good work on this issue. Thank you, 
Madam Chairman.
    Senator Klobuchar. Thank you very much.
    Now we are going to swear in the witnesses here, so if you 
could stand. Do you affirm that the testimony you are about to 
give before the Committee will be the truth, the whole truth, 
and nothing but the truth, so help you God?
    Mr. Perkins. I do.
    Ms. Wetterling. I do.
    Mr. Allen. I do.
    Mr. Keightley. I do.
    Ms. Pirnat. I do.
    Senator Klobuchar. Thank you. We are pleased to be joined 
today by, first of all, Kevin Perkins, who is the Assistant 
Director of the Criminal Investigative Division of the FBI and 
who has been in law enforcement for 25 years. You do not look 
that old.
    Second, we have Patty Wetterling, who co-founded the Jacob 
Wetterling Resource Center in 1990 and who has been an advocate 
for families of missing and exploited children for more than 
two decades. And it is truly an honor to have Patty here from 
my home State.
    We have Ernie Allen, who Senator Blumenthal just commended, 
who is the president and CEO of the National Center for Missing 
and Exploited Children. He is an expert in issues relating to 
missing and exploited children and has run one of the best 
respected private nonprofit organizations in the country since 
1989.
    We also have James Keightley here with us today. He is the 
founder of Keightley & Ashner and a 27-year veteran of the IRS 
General Counsel's Office.
    And then, finally, we have Detective Thea Pirnat who works 
in the Fairfax County Police Department's Child Exploitation 
Unit.
    I thank you, all of you, for arranging your schedules to be 
with us here today on this important topic. Each of you has 5 
minutes, and we will begin with Assistant Director Perkins.

  STATEMENT OF KEVIN L. PERKINS, ASSISTANT DIRECTOR, CRIMINAL 
   INVESTIGATIVE DIVISION, FEDERAL BUREAU OF INVESTIGATION, 
                        WASHINGTON, D.C.

    Mr. Perkins. Good morning, Madam Chairman, Ranking Member 
Grassley, and distinguished members of the Committee. I am very 
pleased to be here with you today to discuss the FBI's efforts 
to combat crimes against children.
    Through our Child Abduction Rapid Deployment Teams, our 
Innocence Lost National Initiative, the FBI and its partners 
are working to make our world a safer place for our children.
    When every minute counts, the FBI's Child Abduction Rapid 
Deployment team, or CARD team, program provides a quick and 
effective response.
    CARD teams consist of highly trained investigators with 
significant experience and expertise working non-family child 
abduction matters. These teams are capable of quickly 
establishing an onsite command post to centralize investigative 
efforts and operations. In addition, they bring national and 
international lead coverage, sophisticated evidence response 
capacities, and are adept at implementing the FBI's Child 
Abduction Response Plan, a best practice, to guide 
investigative efforts. Representatives from the Behavioral 
Analysis Unit provide onsite interview and media strategies to 
round out the investigative effort.
    Over the past 4 years, these teams have deployed 65 times, 
during which 70 children went missing. Of those 70 children, we 
were able to recover 27 of them alive. Unfortunately, 12 of 
them remain missing to this day. And in those cases where 
children remain missing, the CARD team and our evidence 
response teams provide forensic support for our local law 
enforcement partners and their prosecutors throughout the 
search for those children.
    In June 2003, to address the growing problem of commercial 
sex trafficking of children within the United States, the FBI 
joined the Department of Justice Child Exploitation and 
Obscenity Section and the National Center for Missing and 
Exploited Children to launch the Innocence Lost National 
Initiative.
    Driven by intelligence and using sophisticated techniques, 
the FBI's offices focus their resources on disrupting and 
dismantling the criminal enterprises that transport juveniles 
for the purposes of prostitution. Each of the initiative's 41 
task forces and working groups throughout the U.S. include 
Federal, State, and local law enforcement agencies working in 
tandem with the various prosecutors within the United States 
Attorney's Offices. To date, operations sponsored by the 
initiative have resulted in over 600 Federal and State 
convictions and the location and recovery of over 1,300 
children. Investigative efforts have increasingly resulted in 
substantial sentences for those convicted, including six life 
sentences and numerous others ranging from 25 to 45 years in 
prison.
    It is important to recognize that we are not alone in our 
efforts to identify victims and bring their abusers to justice. 
As you know, few crimes bring law enforcement together as 
quickly as an endangered child. Even when the FBI is not the 
lead investigative agency, we provide significant resources to 
our State and local partners. We stand shoulder to shoulder, 
working to locate children and build cases against their 
offenders.
    In today's toolkit, investigators will find cutting-edge 
forensic tools such as DNA, trace evidence, impression 
evidence, and digital forensics. Through globalization, law 
enforcement also has the ability to quickly share information 
with partners the world over, and our outreach programs play an 
integral role in prevention.
    However, challenges do remain. For example, each year 
parents unlawfully abduct their own children from the custodial 
parent, leaving the left-behind parent to wonder if their child 
is safe and setting law enforcement into action to find both 
the abductor and the victim.
    The FBI works closely with our State and local law 
enforcement partners in these arduous investigations to expend 
and exhaust all resources necessary to rescue a child. But 
oftentimes these abductors still elude us. I look forward to 
continuing discussions with the Committee on these challenges 
and others.
    Today's FBI remains vigilant in its efforts to remove 
offenders from our communities and to keep our children safe. I 
appreciate the opportunity to discuss those efforts with the 
Committee, and now I am happy to answer any questions you may 
have.
    Thank you, Senator.
    [The prepared statement of Mr. Perkins appears as a 
submission for the record.]
    Senator Klobuchar. Thank you very much, Mr. Perkins.
    Ms. Wetterling.

  STATEMENT OF PATTY WETTERLING, CO-FOUNDER AND MEMBER OF THE 
BOARD OF DIRECTORS, JACOB WETTERLING RESOURCE CENTER, ST. PAUL, 
                           MINNESOTA

    Ms. Wetterling. Good morning, Senator Klobuchar, Senator 
Grassley, Senator Blumenthal, and thank you, all members of the 
Senate Judiciary Committee. I want to thank Senator Klobuchar 
for inviting me to participate today to talk about my 
experience as the mother of a missing child.
    When you have a missing child, you enter a world that no 
one wants to know. Our world fell apart on October 22, 1989, 
when my son Jacob was kidnapped. He was biking home from a 
convenience store with his brother and his friend Aaron when 
they were confronted by a masked gunman a half a mile from our 
house. Although I had been a stay-at-home mom, and my husband 
and I knew a lot about things, all kinds of things related to 
children, we knew nothing about how to proceed in this 
situation.
    The response from law enforcement was phenomenal. The FBI 
headed our search, but worked alongside the Minnesota Bureau of 
Criminal Apprehension, our BCA, the St. Joseph Police 
Department, the Stearns County Sheriff's Department, and the 
Tri-County Major Crimes Unit. As a parent, it was all very 
confusing. I did not understand the different jurisdictions--
and I really did not care. All I wanted to know was: Are you 
working together? Are you part of the team?
    We had help and support from so many places: other 
agencies, law enforcement from across the State, the National 
Center for Missing and Exploited Children, the National Guard, 
search dogs, horses, helicopters, and Congressional leaders. 
Minnesota Senators David Durenberger and Rudy Boschwitz 
included Jacob's photo on their mailings to constituents. And 
even the IRS has circulated Jacob's and other missing 
children's photos in their tax booklets. That is the response 
we need for every missing child.
    After Jacob's abduction, we started a parent-to-parent 
mentoring program called Team HOPE, and it was there that I met 
hundreds of searching parents--including parents who had lost 
their child through family abduction. I learned that so often 
these parents do not receive quite as much support as those 
with non-family abductions. I learned about the trauma of 
children who were parentally abducted. Eventually, many of 
these children grow up and find their searching parents, and 
they can speak painfully of the many challenges that they 
continue to face because of that abduction. The bottom line is: 
You cannot steal children.
    An abducted child has everyone taken from them. They lose 
their other parent and sometimes siblings, their homes, their 
pets, their toys, their friends and relatives, their teachers. 
Everything familiar about their lives is gone. Sometimes they 
are told their other parent is dead. They live in isolation, in 
sadness, and in fear. They live a lie.
    In both types of abductions, we always have felt that 
someone knows where our children are, and we hope and pray that 
someday that person will come forward, and any additional piece 
of information that might bring our children home is welcome.
    In the case of family abductions, there is a Government 
agency that may have additional information, and that is the 
IRS. We know that law enforcement needs to work together, and I 
believe that there is a solution to this gap in the search.
    It needs to be fixed. All searching parents want to know 
that everybody is working together and reinforcing that message 
that you cannot steal children, not your own and not someone 
else's.
    I know Senator Klobuchar has introduced the Access to 
Information about Missing Children Act to help law enforcement 
get limited taxpayer identity information from the IRS. I am 
supportive of all efforts to give Government agencies the 
authority they need to share information with law enforcement 
in these cases. I know personally how critical it is, the 
information sharing, between Federal, State, and local law 
enforcement.
    As a country, we are getting better and better at 
responding, thanks to things like the AMBER Alerts, better 
training of law enforcement, and we can all thank the National 
Center for Missing and Exploited Children for their steadfast 
commitment to our children and their high recovery rate of 
finding children.
    I know that somebody knows something, and I will fight 
always for the world that Jacob believed in. It is a world that 
knows that there are more good people than bad, and that when 
good people pull together, amazing things happen. I am grateful 
for all of you good people pulling together, seeking to address 
this hole in the search for missing children.
    You can have a tremendous impact by ensuring that all 
agencies are able to work together to find our children. Again, 
we need to make a clear statement that you cannot steal 
children, not your own and not someone else's.
    As Senator Grassley said, if this legislation can save just 
one child and that child is yours, you will know that it is 
worth it.
    Thank you for inviting me to testify.
    [The prepared statement of Ms. Wetterling appears as a 
submission for the record.]
    Senator Klobuchar. Thank you very much.
    Ernie Allen.

    STATEMENT OF ERNIE ALLEN, PRESIDENT AND CHIEF EXECUTIVE 
 OFFICER, NATIONAL CENTER FOR MISSING AND EXPLOITED CHILDREN, 
                      ALEXANDRIA, VIRGINIA

    Mr. Allen. Madam Chairman, Senator Grassley, Senator 
Blumenthal: In 2007, the Treasury Department's Inspector 
General for Tax Administration conducted a study using the 
National Center's family abduction cases. The IG analyzed 
containing Social Security numbers for missing children and 
alleged abductors to identify new addresses--addresses that 
were different from where the child and the abductor lived at 
the time of the abduction.
    Senator Klobuchar, as you pointed out, 34 percent of the 
abductors' addresses were found by the IG in tax information, 
and in addition to that, nearly half of the missing children 
were listed in those tax forms. So we found new addresses for 
46 percent of the missing children in the sample.
    We alerted the FBI so it could request disclosure under 26 
U.S.C. 6103 and recover the children. To our knowledge, the new 
addresses in the IRS database have never been disclosed. The 
barrier, as you point out, is privacy law.
    Now, let me emphasize, like all of you, that we support 
strong protections against the misuse of confidential taxpayer 
information. Yet there are 22 exceptions in 6103 allowing the 
IRS to turn over information in child support cases, for the 
repayment of student loans, to help Federal agencies determine 
whether an applicant qualifies for benefits, and 19 additional 
exceptions. Surely missing and exploited children warrant such 
an exception. And the taxpayers in question here are fugitives 
with felony warrants issued for the arrest.
    Current law forbids the IRS from turning over data from tax 
returns unless a parental abduction is being investigated as a 
Federal crime and a U.S. district judge orders the information 
released. But most parental abductions are investigated by 
State and local authorities, and even when the FBI does 
intervene, requests for IRS data are rarely granted.
    The problem is exacerbated by skepticism about parental 
abductions. The kid is with a parent. How bad can it be? Well, 
as Patty pointed out, it can be pretty bad. These kids suffer 
real harm, social, emotional harm. And even some judges do not 
view parental abduction as very serious, feeling that it is 
better suited for family court rather than criminal court. Yet 
these abductions are criminalized under Federal law and the 
laws of every State. Congress recognized the severity of these 
crimes when it passed the Parental Kidnapping Prevention Act of 
1980. And I realize that it may seem far-fetched, as you 
pointed out, that an abductor with felony warrants would 
include detailed information about himself and his victim on 
tax returns. Yet the IG's pilot demonstrates that many do just 
that.
    Let me mention one other scenario briefly in which access 
to such data is essential. Although not typical missing child 
cases, some child pornography victims are missing in that they 
have not told anyone about their abuse, and as a result have 
little chance of being identified and rescued. At the National 
Center's Child Victim Identification Program, our analysts 
review 250,000 images and videos each week in the effort to 
identify and rescue children. Most of the victims are abused by 
a parent or someone who knows them. But we believe there are 
thousands of hidden victims, sexually exploited children who 
are unknown and will continue to suffer until they are located. 
Access to IRS information is vital in enabling law enforcement 
to identify and rescue these victims. One quick example.
    Our staff recently saw many images of one little girl. In 
some of them a small plaque was visible on the wall with a 
first name and a date. Surmising that this might be the 
victim's first name and birth date, we alerted Federal law 
enforcement which served legal process on the Social Security 
administration and obtained addresses of girls born on that 
date with that same first name. The information provided was 
current as of the date of the Social Security application, but 
not current in terms of where the child was currently living. 
This required law enforcement to seek current address 
information. Federal prosecutors sought an ex parte order from 
a judge and obtained up-to-date address information from the 
IRS. As a result, law enforcement identified and rescued the 
child. It worked, but it was complicated and time-consuming.
    Senator Klobuchar, the Treasury IG has confirmed that the 
IRS database contains information that will enable us to find 
and rescue many more children. We believe that the law should 
be modified to allow for the disclosure of this information to 
law enforcement in missing and exploited child cases.
    Thank you.
    [The prepared statement of Mr. Allen appears as a 
submission for the record.]
    Senator Klobuchar. Thank you very, very much.
    Mr. Keightley.

STATEMENT OF JAMES KEIGHTLEY, PARTNER, KEIGHTLEY & ASHNER LLP, 
                        WASHINGTON, D.C.

    Mr. Keightley. Senator Klobuchar, Senator Blumenthal, it is 
a pleasure to be here today. My name is Jim Keightley, and the 
reason I am here--I am really a pension lawyer by current 
background and do a great deal of work with defined benefit 
pension plans. I was general counsel at the Pension Benefit 
Guaranty Corporation for 10 years. And even there I encountered 
disclosure problems with the Internal Revenue Service, so I 
have been on both sides of this issue, either giving it out or 
trying to get it from the IRS.
    I am not going to read my testimony. I am going to try and 
go through and just hit the highlights of what is going on.
    I think everybody has come to the conclusion that the IRS 
really does not have the authority to cooperate directly and 
fully in these requests. The reason for that, for people who do 
not know the history, was that in 1976 the Congress took away 
from the executive branch the authority to determine who could 
receive tax information. And when they did that, they enacted 
what is now known as Code Section 6103. It is probably one of 
the longest code sections in the Internal Revenue Code. When I 
just printed it out recently, it was 26 pages long.
    Originally, it was intended to limit disclosure almost only 
to the Internal Revenue Service. I think that was consciously 
done to build a wall around the Internal Revenue Service, for a 
number of administrative reasons.
    It was intended to be the comprehensive and exclusive 
disclosure provisions. Tax information it covers everything 
from White House disclosures to Congressional committees to the 
Joint Committee on Taxation. It really is quite thorough.
    Its definition of ``tax information'' is dramatically 
broad. It includes name and address, all sorts of different 
little things. It even covers investigative disclosures by an 
agent who goes out and, in order to obtain information, an 
agent has to say who he is investigating, what transaction he 
is interested in looking at. So it is comprehensive. In 
addition to being the exclusive way to do it, they also put in 
safeguard requirements.
    Finally, just to make sure people took it really seriously, 
they clarified the criminal provisions and ended up putting in 
civil damage provisions, which did not exist prior to that 
time. So it was basically limited to tax administration as I 
say, intentionally.
    Now, there is this policy tension which Congress has had to 
deal with as it has moved through these various provisions with 
the tension between a voluntary tax system where we are 
coercing and forcing people to file tax returns and to whom and 
when do we give tax information out.
    So that is the issue. I am sure Senator Grassley on the 
Finance Committee has had to thrash with that issue in many 
cases.
    My personal recommendation--and I am fully supportive of 
the idea that some solution has to be figured out here One 
point I want to clarify was why does an abducting parent fill a 
tax return. Well, one, if you do not file a tax return and you 
are working and you have income, the IRS is sooner or later 
going to get a 1099 or a W-2 and they are going to say--Where 
are you? What are you doing? So you are going to get caught. In 
addition, you get the earned income tax credit, you get the 
dependency deduction. You also may have child care deductions. 
So it is perfectly rational for a person who is not a complete 
Lindbergh-type kidnapper to file a tax return and try and get 
the benefits of the finances for the benefit of the child and 
whatever unit they are currently -you know, they are a family 
unit--supporting at that time.
    My personal recommendation--and I have not had a chance to 
review all the proposed legislation that has been put out--
would be to allow a disclosure by the SSA. There is currently a 
provision for the Social Security Administration to disclose to 
State and local child support agencies. It seems to me that 
locating these people is the most important thing, whether they 
deduct the child or not on the return. So there is a provision 
that allows disclosure for child support purposes, but I think 
that could be expanded. The reason I try and keep it tied to 
the 6103 provision is it also allows the recordkeeping and 
safeguarding provisions that are currently in existence in the 
Social Security situation to be available.
    Now, I guess my bottom line is I think that narrow solution 
should be adequate. It should cover the location of just 
anybody who are people are looking for. And the idea that they 
did or did not deduct them on the tax return is not terribly 
important to finding the people you are looking for here. And 
another solution might entail a much greater disclosure and 
intrusion into the confidentiality of tax information.
    So, with that, that is where I am coming out, and it is a 
pleasure to be here. Thank you.
    [The prepared statement of Mr. Keightley appears as a 
submission for the record.]
    Senator Klobuchar. Thank you very much, Mr. Keightley.
    Ms.Pirnat.
    Ms. Pirnat. Detective Pirnat.

STATEMENT OF THEA M. PIRNAT, DETECTIVE, FAIRFAX COUNTY POLICE, 
   CRIMINAL INVESTIGATIONS BUREAU, CHILD EXPLOITATION UNIT, 
                       FAIRFAX, VIRGINIA

    Ms. Pirnat. Senator Klobuchar and Senator Blumenthal, thank 
you very much for allowing me to be here. I am here obviously 
because I am local law enforcement, and these are the type of 
cases that I particularly investigate: parental abductions and 
missing juveniles. And I am fortunate enough to work for a 
police department that has more resources than most. We have 
over 1,400 sworn officers in addition to patrol and 
investigative personnel. We have our own computer forensics and 
crime scene units; our own helicopter and K-9 unit, complete 
with bloodhounds; a marine patrol unit and even a dive team, 
just to name a few.
    We are conveniently located just outside of Washington, 
D.C., giving us easy access to multiple Federal law enforcement 
agencies and invaluable resources like the National Center for 
Missing and Exploited Children. This affords us the opportunity 
to secure convenient and top-notch training and to establish 
positive multi-agency working relationships.
    Even with all these resources, we still cannot always 
locate every missing child in a timely manner. In some sad 
cases, we cannot locate them at all. Time is the enemy in cases 
involving missing and abducted children. The longer a child is 
unaccounted for, the more likely that they are being harmed. 
The most important thing we can do is recover these children 
and as quickly as possible.
    Every detective in my unit dreads the occasional notice we 
get about an unidentified young body being found. We are asked 
for information on our active missing juvenile cases that may 
match the description of the unknown remains. We all understand 
the importance of being able to identify the body for what is 
likely now a homicide investigation. However, we never want to 
be a detective whose missing juvenile case is closed in that 
manner.
    At the end of our shifts, we already wondering if there is 
another phone call we should make, another location we should 
check, or another court order we should write before we head 
home that night.
    We do carry these cases with us on a personal level. I do 
not know any career law enforcement officer that does not have 
a case or perhaps several cases that will haunt them for the 
rest of their lives. That is especially true for investigators 
that work cases involving crimes against children. There are 
horrible images I can still see, awful sounds I can still hear, 
and tragic stories I will never forget.
    There is no tool that local law enforcement is not willing 
to learn and use if given lawful access. We want to find 
missing children, and we want to find them without any delay. 
We are too much aware of what happens to them when they are not 
located and not located quickly.
    I encourage you to support any and all measures that 
provide local law enforcement with access to information that 
would help us recover our missing and abducted children.
    I am thrilled by the pending bill to allow IRS to release 
information to local law enforcement on abducted children being 
claimed as dependents and hope that moves forward successfully. 
That is the type of measure that we truly do need. We have a 
situation where we have in parental abductions known victims 
with known offenders and known addresses. I see no reason why 
we not want to identify them and make for happy endings 
possibly in those cases.
    I am encouraging you to continue to find ways to share 
information that may already be at the Federal level with local 
law enforcement, such as flight and other travel itineraries. 
Even though we cooperate with Federal agencies, there is 
sometimes a delay as we wait for callbacks and confirmation 
that our case meets their investigative criteria.
    I also encourage you to facilitate methods for local law 
enforcement and courts to share information with each other, 
such as implement a nationwide child custody database. Parental 
abductions--they often continue to debate child custody and 
they will continue to file child custody orders in different 
jurisdictions which essentially muddies the water in our 
criminal investigation when we do make recoveries.
    In closing, I would like to thank you for taking testimony 
on this important issue and your continued leadership and 
assistance to local law enforcement. Thank you.
    [The prepared statement of Ms. Pirnat appears as a 
submission for the record.]
    Senator Klobuchar. Thank you so much, Detective.
    I also want to put in the record a statement by Senator 
Leahy, which will be included in the record, no objections.
    [The prepared statement of Chairman Leahy appears as a 
submission for the record.]
    Senator Klobuchar. Also the article that was in the New 
York Times November 12, 2010, which I referenced as well as 
Senator Blumenthal, by David Kocieniewski about this issue. A 
thorough report.
    [The article appears as a submission for the record.]
    Senator Klobuchar. I wanted to start our questions here 
with you, Mr. Perkins, and we talked about, I think, the 
Federal kidnapping law came about because of the Lindbergh baby 
kidnapping case, that that was a driving force behind the 
passage of that act, which, of course, makes transporting 
kidnapping victims over State lines a Federal offense. I guess 
my first question was what Mr. Keightley referred to, that 
these cases are not like Lindbergh-like cases with strangers. 
But could you explain how some of these family abductions can 
be just as plotted out and manipulative and difficult to solve 
as well as very heart-breaking for the families as any other 
stranger abduction?
    Mr. Perkins. Yes, Senator. Thanks. Exactly, and I think it 
goes to some of the testimony of Ms. Wetterling talking about 
any child going missing. You are exactly right. It causes 
tremendous heartache, concern, and tragedy for the family who 
has lost a child, whether it is a stranger abduction or whether 
it is a parental abduction. There is on many occasions 
significant advance plotting to make this happen.
    You have to begin with the premise initially that the 
parent taking the child, the case has already been adjudicated 
in a court and custody has been established for specific 
reasons. So there are reasons why that parent does not have 
custodial rights at that point in time. When that child is 
taken away, it totally disrupts that child's life, as has been 
mentioned earlier, and it sets into motion a number of 
different issues for law enforcement.
    In our particular case, the FBI becomes involved in these 
types of investigations more often than not through invitation 
from State and local law enforcement. We can bring to bear a 
number of forensic techniques, advanced investigative and 
laboratory processes. We also bring in, obviously, the 
international scope.
    There is a Federal statute that allows us to become 
involved in one of these cases where--I am sorry, ma'am.
    Senator Klobuchar. Just there are time constraints here. Do 
you know, are a lot of these cases handled by local law 
enforcement? I am just picturing my own life when I was county 
attorney and you guys got really busy with huge money cases and 
thefts. I mean, are still most of these cases handled on the 
local level?
    Mr. Perkins. The vast majority of these cases are initially 
handled at the State and local level. That is where the 911 
call comes in when your child goes missing, and that is where 
the immediate call should be. But based upon requests from the 
State and local law enforcement or specific Federal violations 
where the FBI can become involved, we involve ourselves in any 
missing child where there is a potential danger to the child, 
yes.
    Senator Klobuchar. Mr. Keightley mentioned this existing 
part of the code. First of all, I was actually kind of 
surprised that there are these 22 exceptions that Mr. Allen 
discussed for things like student loans. I just do not 
understand why we would say it is OK to have those exceptions 
for student loans to track them down but not for missing 
children, and that is what bothers me here. But Mr. Keightley 
did raise the issue that there is an exception for child 
support orders, and it would seem to me--do you know what 
percentage of these families have outstanding child support 
orders where we could use that? I do not quite understand why 
we would not just slightly tweak that to include missing 
children information as opposed to just saying, well, part of 
them have child support orders so why don't we use that.
    Mr. Perkins. I think part of what you just mentioned would 
be an excellent solution to where if we could potentially tweak 
that exception to allow State, local, and Federal law 
enforcement to have access to the address information, and that 
is really all we are looking for here.
    Senator Klobuchar. You do not need to see what their taxes 
are or anything.
    Mr. Perkins. No. We need the latest and greatest and most 
accurate address for the offender.
    Senator Klobuchar. And do you know what percentage would 
have these standing child support obligations?
    Mr. Perkins. No, ma'am, I do not have that percentage, but 
I could find that for you.
    Senator Klobuchar. Mr. Allen? Mr. Keightley?
    Mr. Keightley. Could I make a comment on that? One of the 
reasons I was pushing toward Social Security, I believe that 
information would be more quickly available. If you wait for 
somebody to file a tax return, on extension until the IRS puts 
it all in the computer base and all of that, it can be 18 
months or more until it is really easily available. So one of 
the advantages I did not mention was with Social Security is 
that I think it would be more quickly available.
    Senator Klobuchar. Maybe we can do both.
    Mr. Allen.
    Mr. Allen. Yes, a couple of points. Our sense is that very 
few of these cases have child support orders. I am not sure we 
have data on that, but the nature of the parental abduction 
case is that research shows that in 80 percent of them, the 
motivation is anger or revenge. In many of these cases, the 
child is taken before there is a custody order. So many of the 
victim parents, the left-behind parents, really do not think 
their ex-spouse would do that and are not prepared to deal with 
it.
    So, ultimately, I think it is really important that there 
be a very specific exception or some other statutory 
authorization to deal with these unique kinds of cases.
    Senator Klobuchar. OK. Very good. My time is up here. I am 
going to turn it over to Senator Grassley.
    Senator Grassley. Thank you very much.
    Mr. Keightley, I am going to ask you a question that not 
only the Judiciary Committee but the Finance Committee ought to 
be very interested in your answer. Mr. Allen argues for an 
exception to the Tax Code privacy rules to help locate missing 
children. He states that Congress must examine whether a 
fugitive's privacy is more important than a child's safety. 
Understandably, Mr. Allen's focus is the safety of the child, 
and I think we all agree with that sort of a pronouncement.
    However, it is not just an abductor's privacy that is at 
stake. There may also be criminal investigations of the 
abductor. We may also set a precedent that may lead to other 
requests to relax the IRS data. There have already been some 
exceptions, admittedly. In addition, I am concerned about a 
government agency, in this case the IRS, being the largest 
repository of data on individuals.
    So would you, Mr. Keightley, please provide your thoughts 
on the use of IRS data in criminal investigations. Also, what 
are your thoughts on the precedent this sets for other similar 
uses?
    Mr. Keightley. Thank you, Senator Grassley. In my 
testimony, I did try and draw the distinction--and it is true--
that there is no broad access to State and local criminal 
investigators. But I do think in this case--and I think Senator 
Klobuchar's point is correct--that if the Congress has gone so 
far as to allow access to information for child support, it 
would seem to me not too big a jump to say that the Tax Code 
should allow access for purposes of locating and providing 
assistance just in locating. And I also narrowly tried to 
confine my suggestion not to the whole tax return, to say all 
we are doing really is best address information.
    So I understand the tension between tax administration and 
various disclosures because we force people to file these tax 
returns. We force great amounts of information out of them. And 
we need to strike that balance so that people continue to file 
and have confidence in the confidentiality provisions.
    Senator Grassley. Just my last question would be to Mr. 
Allen. You have testified today and also before the Sentencing 
Commission about the harms caused by possession of child 
pornography. Disturbingly to me, the Sentencing Commission and 
too many Federal judges seem to think that the possession of 
child pornography is not a serious offense that deserves real 
punishment. Instead, they seem to think it involves an offender 
who suffers from a mental illness that requires treatment.
    So please comment on the accuracy of that view and what 
Congress should do in light of the weak sentences now being 
imposed for the possession of child pornography.
    Mr. Allen. Senator Grassley, a couple of thoughts.
    The Sentencing Commission is currently re-examining 
guidelines. We are supportive of a re-examination of the 
guidelines. Based on the Booker decision of the Supreme Court a 
few years ago, guidelines are now advisory rather than 
controlling. Congress has not enacted a mandatory minimum 
sentence for the possession of child pornography. More than 
half of current sentences for the possession of child 
pornography depart below the minimum of the guideline. The 
Justice Department's Child Exploitation and Obscenity Section 
has done an excellent analysis of sentencing patterns. We do 
not support disparity in sentencing, but the sentences for 
child pornography possession are not more extreme than 
sentences for contact offenses.
    The issue--and we have been working with the Sentencing 
Commission on this--is to ensure that criteria for enhancing 
sentences from 10, 12 years ago, like the use of a computer, 
are re-examined because all of this content now involves the 
use of a computer.
    The answer to your question is we are concerned that there 
are growing numbers of minimal sentences, there are growing 
numbers of judges who are talking about mere possession of 
child pornography. This is an issue that has nothing to do with 
free speech. These are crime scene photos. These are images of 
the sexual abuse of a child. We think this is a serious crime 
and it needs to be dealt with seriously.
    Senator Grassley. I did not think I would have time for a 
last question, but this involves Federal judges making tax 
return information available to law enforcement in a parental 
abduction case if requested. Few judges do this. Any of you, 
could you speak to the point, how well do you think the Federal 
judges have used their current authority to order IRS to make 
tax return information available? And what do you think can be 
done to raise their awareness that so many parental abductions 
are violent crimes?
    Mr. Keightley. I tried to get some information on the case 
that was alluded to in the newspaper article, and I was unable 
to find any detail on it. So I am not sure what the answer to 
that question is, Senator.
    Senator Grassley. OK. Do any of you have an answer? If you 
do not, that is OK. Or if you can supply for an answer in 
writing, that would be OK.
    Ms. Wetterling. Senator Grassley, I would just like to say 
that addressing this makes the statement that it is illegal to 
abduct children, and so it is a baseline of awareness for 
everyone out there. And I think that judges will be receptive 
to the opportunity, when law enforcement makes the request, 
that there will be a process for that to be honored in a timely 
fashion.
    Senator Grassley. Thank you.
    Senator Klobuchar. OK. Thank you very much, Senator 
Grassley.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Madam Chairman.
    I think to give some context to the line of questioning 
that Senator Grassley has been very correctly and well 
pursuing, part of the problem here is the priority that law 
enforcement and judges give to this crime. I can remember as 
United States Attorney back in the late 1970's when the FBI 
and, frankly, Federal prosecutors and even local prosecutors 
gave very little priority to this crime because it was regarded 
as purely a domestic dispute and not really worthy of the 
criminal justice apparatus. So I want to commend both the FBI 
and Detective Pirnat, your office and other local and State 
offices around the country, for the heightened priority you 
have given it, but at the same time really again pursue the 
line of questioning that has been raised here about maintaining 
and even enhancing the priority. Because even with this 
information, even knowing where the abductor lives and works, 
there still has to be investigation and there still has to be a 
prosecution, and that requires resources.
    So my question to Mr. Perkins and Ms. Pirnat is: Do you 
believe that the resources now are sufficient? And do you think 
they can and should be increased?
    Mr. Perkins. Thank you, Senator, for the very good question 
on these areas. In a time of limited resources, in a time when 
we are struggling with our own budgetary resources to meet the 
various priorities, you are correct, this has risen in its 
level of priority.
    As the Assistant Director of the Criminal Division I have 
almost 50,000 pending criminal investigations across the United 
States in a variety of areas. As a parent, as a parent of two 
children, nothing surpasses for me personally the priority of a 
child going missing. That is my own personal belief on this. 
But it is also one that is shared within the Bureau and within 
the Department.
    As far as resource, every day we work to get the best and 
most efficient means we can to investigate these cases. The 
issue at hand here today, talking about a more efficient, a 
quicker way of getting information to rescue these children is 
really the focus of what I am working on, trying to get this 
information in a quicker manner, a more efficient way to use 
the resources that we have.
    Sure, more resources are always better, but my job is to 
use those resources as efficiently as I can and make the best 
use of them, and that is what we are trying to do here today.
    Ms. Pirnat. I do believe that with limited resources we are 
doing the best we can. Unfortunately, sometimes these cases are 
getting screened out by the first responder because there is a 
misunderstanding by the officer responding about a parental 
abduction, whether or not it is actually a crime or a civil 
matter. We constantly do training to make sure we are getting 
the right information out there.
    When it comes time for prosecution, because of the number 
of cases that are being prosecuted, those are the cases that 
are getting bumped down. I did have a parental abduction where 
both the grandmother and the father took the children to 
California. I was able to make a successful recovery. And when 
it came time for court, they dropped it down to a misdemeanor 
for the father, and for the grandmother they actually dropped 
it down to a trespassing, of all things. And I was very 
disappointed with that outcome. But it is because they 
prioritize their cases, and those are not getting the type of 
attention I think they should be as far as the potential damage 
to the children.
    Senator Blumenthal. And let me ask another question, and, 
by the way, I think this issue is hugely important because the 
reason, the main reason in my view, that the abductor puts this 
information on a tax return is he does not believe anybody 
cares. He does not believe anybody will follow up on it, even 
if there is disclosure. And he probably assumes there will be 
because he does not know about this 26-page section in the IRS 
Code. He just kind of thinks he is halfway across the country 
or all the way across the country, and no one is going to track 
him down. And that is why the priority given to this serious 
felony crime has to be maintained and increased
    I am out of time, but I would like to know from all of you 
what information you feel should be provided, whether it is the 
location on the tax return that is given, the employer. What 
specific information should be disclosable? Because I think 
that is important, and I am not sure that the legislation will 
go into that detail. But I think knowing from you what specific 
information should be disclosable I think would be useful to 
the Committee.
    Thank you.
    Mr. Keightley. I think that is a very important point 
because, as Senator Grassley pointed out, the tension between 
confidentiality and whatever is needed by the investigators, it 
should be the narrowest access to information that serves their 
purposes. As I said, that needs to be thought through.
    Senator Klobuchar. OK. And, Senator Blumenthal, I am going 
to have the witnesses answer that in writing for us because the 
vote has been called, if that is all right with you.
    Senator Blumenthal. Sure. I expected that would be the 
case, and I thank you in advance for your answers.
    Senator Klobuchar. And we will get that information.
    [The questions appear under questions and answers.]
    Senator Klobuchar. It seems clear to me that a lot of the 
witnesses have pointed to the address information as the key 
and an acknowledgment of these privacy concerns. But I just 
wanted to just finish up here with just a few concluding 
questions, and that would be, first of all of Ms. Wetterling. 
You know, you have come into countless contacts with families 
who have suffered both stranger and family abductions. What do 
you believe to be the biggest difference between the stranger 
abduction cases and the family abduction cases?
    Ms. Wetterling. It is the level of support from community, 
from law enforcement, from Federal agencies. And what is most 
important to every family is that there is this collective 
energy that we are all holding hands and combing this country 
to find our child. And I think that this is one of the ways 
that we are closing a gap. As we discover holes in the process, 
we need to fill them.
    Senator Klobuchar. OK, very good.
    Then for our detective there, I thought that was a good 
example that you had of those kinds of cases. But just maybe 
following up on Senator Blumenthal's question, for someone who 
is on the front line there dealing with those cases, you know, 
having to have limited resources, what information would be 
most helpful to have if you think there is a family abduction 
and you cannot find the person?
    Ms. Pirnat. Well, in addition to the actual addresses, I 
would say the employer information with the employer address 
and also phone numbers and e-mail addresses would be helpful 
for us because that physical address they provide may not be 
the most accurate. So anything else that we could have to 
actually track them down would be great. We do not need to know 
income or anything along those lines.
    Senator Klobuchar. And how does it feel to hear about the 
study that Mr. Allen worked on that showed that a third of 
these family abductions actually are filing some kind of 
information and half of those actually have updated addresses?
    Ms. Pirnat. I am not surprised just because of the 
mentality of the parental abductors that they are entitled to 
the children. So that information is out there, and they are 
continuing to file tax returns, and that information could 
successfully lead to us being able to close out our cases. I 
just see no reason why we would not move forward with sharing 
that so that we can hopefully, like I said, reunite some 
families.
    Senator Klobuchar. Any closing remarks, Mr. Allen, since 
you have been spending a lot of time on this?
    Mr. Allen. I think the only point in addition I would want 
to make in response to Senator Blumenthal's point is that in a 
time of scarce resources, in a time when numbers are 
challenged, when there are not going to be the numbers of 
agents or police officers that we have had in the past, it is 
more important than ever that the police that are there have 
the kinds of tools and information to find these kids and be 
able to move quickly. This is just basic management that will 
enable them to maximize the impact of the resources we have.
    Senator Klobuchar. All right. Well, I want to thank all the 
witnesses. It has actually been a very helpful hearing, and I 
thank you, Mr. Keightley, for your tax expertise and coming 
into our criminal hearing with that piece of it, and everyone's 
willingness to acknowledge that we are balancing these privacy 
concerns with the enormous need to solve these cases. And thank 
you, Patty Wetterling, for the passion you bring to this issue. 
That has motivated me to get involved and stay involved because 
I truly believe there has got to be a way to work this one out. 
I know it is important to collect those student loans, and 
right now we are dealing with a time in government budgets that 
we have to do everything. But here we have something where 
there are already exceptions, if we could just make some 
changes to get this information so Mr. Perkins and his agents 
and some of the local people have it. I am just so aware of 
these limitations with some proposals out there with cutting 
4,000 FBI agents, which I do not think will come to fruition. 
We have got to do everything we can to make this as efficient 
as possible while still protecting privacy rights.
    So I want to thank you all. The record will remain open for 
2 weeks, and we will be following up with you on this important 
issue and this important bill.
    The hearing is adjourned.
    [Whereupon, at 11:09 a.m., the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]
[GRAPHIC] [TIFF OMITTED] 75919.001

[GRAPHIC] [TIFF OMITTED] 75919.002

[GRAPHIC] [TIFF OMITTED] 75919.003

[GRAPHIC] [TIFF OMITTED] 75919.004

[GRAPHIC] [TIFF OMITTED] 75919.005

[GRAPHIC] [TIFF OMITTED] 75919.006

[GRAPHIC] [TIFF OMITTED] 75919.007

[GRAPHIC] [TIFF OMITTED] 75919.008

[GRAPHIC] [TIFF OMITTED] 75919.009

[GRAPHIC] [TIFF OMITTED] 75919.010

[GRAPHIC] [TIFF OMITTED] 75919.011

[GRAPHIC] [TIFF OMITTED] 75919.012

[GRAPHIC] [TIFF OMITTED] 75919.013

[GRAPHIC] [TIFF OMITTED] 75919.014

[GRAPHIC] [TIFF OMITTED] 75919.015

[GRAPHIC] [TIFF OMITTED] 75919.016

[GRAPHIC] [TIFF OMITTED] 75919.017

[GRAPHIC] [TIFF OMITTED] 75919.018

[GRAPHIC] [TIFF OMITTED] 75919.019

[GRAPHIC] [TIFF OMITTED] 75919.020

[GRAPHIC] [TIFF OMITTED] 75919.021

[GRAPHIC] [TIFF OMITTED] 75919.022

[GRAPHIC] [TIFF OMITTED] 75919.023

[GRAPHIC] [TIFF OMITTED] 75919.024

[GRAPHIC] [TIFF OMITTED] 75919.025

[GRAPHIC] [TIFF OMITTED] 75919.026

[GRAPHIC] [TIFF OMITTED] 75919.027

[GRAPHIC] [TIFF OMITTED] 75919.028

[GRAPHIC] [TIFF OMITTED] 75919.029

[GRAPHIC] [TIFF OMITTED] 75919.030

[GRAPHIC] [TIFF OMITTED] 75919.031

[GRAPHIC] [TIFF OMITTED] 75919.032

[GRAPHIC] [TIFF OMITTED] 75919.033

[GRAPHIC] [TIFF OMITTED] 75919.034

[GRAPHIC] [TIFF OMITTED] 75919.035

[GRAPHIC] [TIFF OMITTED] 75919.036

[GRAPHIC] [TIFF OMITTED] 75919.037

[GRAPHIC] [TIFF OMITTED] 75919.038

[GRAPHIC] [TIFF OMITTED] 75919.039

[GRAPHIC] [TIFF OMITTED] 75919.040

[GRAPHIC] [TIFF OMITTED] 75919.041

[GRAPHIC] [TIFF OMITTED] 75919.042

[GRAPHIC] [TIFF OMITTED] 75919.043

[GRAPHIC] [TIFF OMITTED] 75919.044

[GRAPHIC] [TIFF OMITTED] 75919.045

[GRAPHIC] [TIFF OMITTED] 75919.046

[GRAPHIC] [TIFF OMITTED] 75919.047

[GRAPHIC] [TIFF OMITTED] 75919.048

[GRAPHIC] [TIFF OMITTED] 75919.049

[GRAPHIC] [TIFF OMITTED] 75919.050

[GRAPHIC] [TIFF OMITTED] 75919.051

[GRAPHIC] [TIFF OMITTED] 75919.052

[GRAPHIC] [TIFF OMITTED] 75919.053

[GRAPHIC] [TIFF OMITTED] 75919.054

[GRAPHIC] [TIFF OMITTED] 75919.055

[GRAPHIC] [TIFF OMITTED] 75919.056

[GRAPHIC] [TIFF OMITTED] 75919.057

[GRAPHIC] [TIFF OMITTED] 75919.058

[GRAPHIC] [TIFF OMITTED] 75919.059

                                 <all>

</pre></body></html>
